        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Special Review
Cost Incentives for the Department's
Cleanup Contract in Idaho




OAS-RA-13-20                               May 2013
                                 Department of Energy
                                     Washington, DC 20585

                                          May 13, 2013


MEMORANDUM FOR THE MANAGER, IDAHO OPERATIONS OFFICE


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Special Review of "Cost Incentives for the
                         Department's Cleanup Contract in Idaho"

BACKGROUND

In Fiscal Year 2005, the Department of Energy (Department) awarded a Cost-Plus-Incentive-Fee
contract to CH2M ♦ WG Idaho, LLC (CWI) to lead environmental cleanup of its Idaho National
Laboratory site. The contract originally ran from May 1, 2005 through September 30, 2012, and
has been extended for 3 years to September 30, 2015. The contract had a target cost of
$2.7 billion and a target fee of $196 million (7.36 percent of target cost). The contract includes
an additional incentive if work is completed under target cost, in which the fee will be increased
by 30 cents for every dollar that the total allowable cost is less than the target cost.

In addition to the target work to be completed within the contract, additional non-target work
was allowed under Section B.5 of the contract. When the contract was originally approved, the
contractor anticipated that the amount of additional non-target work would be approximately
$89 million. However, the amount of non-target work completed ultimately increased to about
$510 million, with the largest increase attributable to work funded under the American Recovery
and Reinvestment Act of 2009 (Recovery Act). The Department and CWI are now negotiating
to close out the agreed upon scope of work covered by the contract performance period that
ended September 30, 2012, and to calculate fee based upon the cost to complete this work. In
that connection, the Department requested that we perform this review. Our objective was to
examine the appropriateness of the contractor's allocation of General and Administrative (G&A)
costs to the entire scope of non-target work.

RESULTS OF AUDIT

During our review, nothing came to our attention to indicate that G&A costs had not been
properly allocated to the non-target work. In accordance with its Cost Accounting Disclosure
Statement, CWI allocated about $128 million in G&A expenses to its non-target work, which
was about $88 million more than originally planned for the contract. This allocation reduced the
G&A expense allocated to CWI's target work, thereby reducing the total costs of target work.
The contractor contends the allocation served to reduce the actual cost of target work scope, and
as a consequence, it is entitled to earn fee at the target work scope rate on the allocated amount.
During the audit, however, we learned that the Department disagreed with impact of the G&A
allocation on the incentive fee and was in a dispute with CWI regarding its overall fee.

                                    G&A Expense Allocation

We did not identify any concerns with CWI's allocation of G&A expense to its non-target work.
The allocation appeared to comply with the terms of the contract and was consistent with Cost
Accounting Standards and CWI's disclosure statement regarding how it manages indirect costs.
Although we did not examine all elements or components of the G&A pool in detail, the types of
charges allocated appear, at the surface, to be ones that are generally considered allowable and
allocable under the Federal Acquisition Regulation. In addition, the Department has
acknowledged that CWI's allocations of G&A expenses were done in accordance with generally
accepted accounting principles and Cost Accounting Standards.

                                   Undefinitized Fee Structure

The Department had taken some action to protect its interests with regard to fee on Section B.5
work, however, Federal officials had not definitized terms of the contract in this area. While
contracting officials communicated to CWI that the fee structure was not final pending decisions
regarding G&A allocations early on — in April 2010 — they did not take action to rule on the
fee until January 2012, about 5 months after CWI submitted a proposal for fee associated with
G&A allocation. The following key facts we noted during our review provide a timeline of the
activities associated with the series of contracting actions and contractor claims that took place:

     •   The original contract estimated that the non-target work was to be approximately
         $89 million.

     •   The actual amount of non-target work was $510 million, with Recovery Act work being
         the largest contributor to the increase.

     •   The Recovery Act related major increase meant that a greater portion of G&A costs
         would be allocated to the non-target work than was contemplated in the original
         contract. Given the structure of the cost reduction incentive, the more G&A costs
         allocated to the non-target work, the higher the potential cost incentive fee.

     •   Recognizing this, the Department added a clause to its contract modifications beginning
         in April 2010, shortly after Recovery Act Section B.5 work began, stating that "this
         modification is subject to adjustment upon the determination whether or not to include
         G&A costs in the Section B.5 out of target work scope fee calculation."

     •   CWI accepted these modifications along with the funding provided subject to this new
         language in the contract that the fee calculation would be definitized at a later date.

     •   In August 2011, CWI communicated to the Department's Contracting Officer that it
         believed it was entitled to fee based on its allocation of G&A costs to non-target work.

                                                 2
     •   In January 2012, the Contracting Officer notified CWI that the Department would not
         pay cost incentive fee for cost allocations because the Department viewed the allocation
         as redistribution of contract costs rather than a realization of savings to the Department.

     •   CWI refused to accept the Department's position, asserting in February 2012, that its
         claim for fee was appropriate and consistent with the objectives of the contract.

     •   Shortly afterward, according to CWI, the discussion over the fee was postponed so
         CWI and the Department could concentrate on negotiating a 3-year contract extension.

     •   The original contract period ended September 30, 2012, and CWI sent a letter to the
         Department's Contracting Officer on December 13, 2012, claiming final fee, which
         included the claim for the entire amount of the fee in dispute attributable to the G&A
         allocation.

Based on the totality of the information we reviewed, we concluded that the contract
modifications accepted by CWI disclosed that its fee earning potential in this area was
undefinitized. While the Department did not act to definitize the contract promptly, it asserted
that it preserved its right to do so by including instructions regarding fee determination in the
modification to the contract that provided Recovery Act funding. We also noted that the
contractor accepted the modification and performed the work it was tasked to do. The
Department's notice to the contractor regarding the fee was, in effect, ultimately definitized when
it rendered its decision not to pay an incentive fee related to the allocation of G&A costs to
Section B.5 work scope funded by the Recovery Act. The definitization in this case was
consistent with the contract with CWI, which states that "final fee determination will be
calculated by the Contracting Officer."


RECOMMENDATION

To conclude this issue, we recommend that the Manager, Idaho Operations Office, direct the
Contracting Officer to review and finalize CWI's final contract claim.


MANAGEMENT COMMENTS

Management concurred with the report's recommendation and indicated that corrective action has
been initiated. Management's formal comments are included in their entirety in Attachment 2.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Nuclear Security
    Senior Advisor for Environmental Management
    Assistant Secretary for Nuclear Energy
    Chief of Staff



                                                 3
                                                                                    Attachment 1




                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

We performed this review to examine the appropriateness of the contractor's allocation of
General and Administrative (G&A) costs to the entire scope of non-target work.

SCOPE

This review was performed from November 2012 through April 2013. We conducted the review
at the Idaho Operations Office and CH2M ♦ WG Idaho, LLC (CWI) offices in Idaho Falls,
Idaho. The scope of our review was limited to the issue in dispute between CWI and the
Department of Energy (Department) concerning the allocation of G&A costs from the target cost
to Section B.5 of the contract, and the effect upon fee.

METHODOLOGY

To accomplish the objective of this assessment, we:

     •   Reviewed applicable laws and regulations related to incentive fee;

     •   Interviewed Department and contractor personnel at the Idaho National Laboratory site;
         and

     •   Reviewed CWI's contract and modifications.

We conducted this review in accordance with generally accepted Government auditing standards
for attestation engagements. Those standards require that we plan and perform the review to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our review objectives. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our review objectives. We did not assess all the
costs of the project and can therefore give only limited assurance on these costs. Because our
review was limited, it would not necessarily have disclosed all internal control deficiencies that
may have existed at the time of our assessment. We did not rely on computer-processed data to
satisfy our objective.

Management waived an exit conference.




                                                4
                      Attachment 2




MANAGEMENT COMMENTS




         5
                                                                 IG Report No. OAS-RA-13-20


                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
